    ANNUAL ACCOUNTING AND AUTHENTICATION OF
   DRUG CONTROL FUNDS AND RELATED PERFORMANCE
                 FISCAL YEAR 2009

                 OFFICE OF THE INSPECTOR GENERAL
                    COMMENTARY AND SUMMARY

      This report contains the fiscal year 2009 attestation review reports of
the Federal Bureau of Prisons, Drug Enforcement Administration, Organized
Crime Drug Enforcement Task Forces Program, and Office of Justice
Programs annual accounting and authentication of drug control funds and
related performance. Under the direction of the Office of the Inspector
General (OIG), KPMG LLP performed the attestation reviews. The report and
annual detailed accounting of funds expended by each drug control program
agency is required by 21 U.S.C. § 1704(d), as implemented by the Office of
National Drug Control Policy (ONDCP) Circular, Drug Control Accounting,
dated May 1, 2007.

      KPMG LLP prepared the reports in accordance with the Attestation
Standards issued by the American Institute of Certified Public Accountants
(AICPA). Each of the reports was properly addressed, titled, and contained
the elements required by the AICPA Statements on Standards for Attestation
Engagements, AT Section 101.89. An attestation review is less in scope
than an examination and therefore does not result in the expression of an
opinion. However, KPMG LLP reported that nothing came to its attention
that caused it to believe the submissions were not presented in all material
respects in accordance with the requirements of the ONDCP circular.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an attestation engagement in accordance with U.S.
generally accepted government auditing standards, was not intended to
enable us to express, and we do not express, an opinion or conclusions on
the annual accounting and authentication of drug control funds and related
performance. KPMG LLP is responsible for the attached accountants’ reports
dated January 25, 2010, and the conclusions expressed in the reports.
However, our review disclosed no instances where KPMG LLP did not comply,
in all material respects, with U.S. generally accepted government auditing
standards.
